                                            - --
                                    n                                        n

                                                     OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM




          This investigation was initiated based upon information received that an NSF employee's1
          computer contained numerous inappropriate file names and pornographic images including peer-
          to-peer file sharing software. A computer forensic examination found that no child pornography
          existed on the drive. However, the hard drive did contain inappropriate files which included
          sexually explicit image and video files, copyrighted movies, peer-to-peer software, and a copy of


          The employee was interviewed and acknowledged having visited inappropriate adult web sites
          containing pornographic material from his NSF computer and used peer-to-peer file sharing
          software. Additionally, this employee downloaded various files to the hard drive of the NSF
          computer. He stated that he understood that these activities were inappropriate at work. The
          employee acknowledged that he was familiar with NSF's personal use policy for use of
          government equipment and that he has participated in the Agency's Computer Security Training.

          A report of investigation was submitted to the appropriate NSF official3 for action. The
          employee was terminated4 for his actions in this matter.

          Accordingly, this matter is closed.




                                                                                                     I




I'
 NSF OIG Form 2 (1 1102)
